 Department of Health and Human Servces
         OFFICE OF
    INSPECTOR GENERAL




OFFICE FOR CIVIL RIGHTS' OVERSIGHT
  OF THE HILL- BURTON PROGRAM




               AUGUST 199
                        OFFCE OF INSPECfOR GENRA
The mission of the Offce   of Inspector General (OIG), as mandated by Public Law 95- 452 , as
amended , is to protect the integrity of the Department of Health and Human Servces ' (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carred out through a nationwide network of audits , investigations , and
inspections conducted by three OIG operating components: the Office of Audit Servces , the
Offce of Investigations , and the Offce of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                           OFFCE OF AUDIT SERVICE
The OIG' s Offce of Audit Servces (OAS) provides all auditing servces for HHS , either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carryng out their respective responsibilties and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste , abuse , and
mismanagement and to promote ecnomy and effciency throughout the Department.

                           OFFCE OF INTIGATIONS
The OIG' s Office of Investigations (01) conducts criminal , civil , and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative effort of 01 lead to criminal convictions
administrative sanctions , or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

               OFFICE OF EVALUATION AN INSPECfONS
The OIG' s Office of Evaluation and Inspections (OEI) conducts short- term management and
program evaluations (called inpections) that focus on issues of concern to the Department
the Congress , and the public. The findings and recommendations contained in these inspection
report generate rapid , accurate , and up- to- date information on the efficiency, vulnerabilty,
and effectivenes of departmental programs. This report was prepared in the Chicago
Regional Offce under the direction of Wiliam C. Moran , Regional Inspector General and
Natalie Con , Deputy Regional Inspector General. Project staff:

REGION                                                 HEUAR1ES
John M. Traczyk (Project Leader)                       Ruth Folchman

Thomas F. Komaniecki

Margaret Shell





To obtain a copy of this report , call the Chicago Regional Offce at (312) 353- 4124.
 Department of Health and Human Servces
         OFFICE OF
    INSPECTOR GENERAL




OFFICE FOR CIVIL RIGHTS' OVERSIGHT
  OF THE HILL- BURTON PROGRAM




          AUGUST 199 OEI-05-   001
                 EXECUTIVE SUMMAR
PUROSE
This inspection examines the effectiveness of the processes used by the Office for Civil
Rights (OCR) to monitor compliance with the community servce obligation of health care
facilties assisted by the Hil-Burton program.


BACKGROUN
In 1946 ,Congress passed the Hospital Survey and Construction Act , commonly known as
the Hil- Burton Act. Since 1946 , more than $4 bilion in Hil- Burton funds have aided
nearly 6 900 hospitals and other health care facilities in 4 000 communities across the
United States.

Recipients of Hil- Burton grants agree to make available , in perpetuity, the servces
offered by the constructed facility to all persons residing in their servce area.   This
agreement is commonly known as the Hil- Burton community servce obligation and
prohibits a facilty from discriminating practices. Such practices include discrimination
against patients when providing non-emergency servces and denial of emergency servces
to persons unable to pay. The cooperation of facilties that have received Hil- Burton
grants is important to achieving the Secretary s strategic goal to improve access to health
care for all Americans.

The OCR has responsibilty for ensuring compliance with several different civil rights and
nondiscrimination statutes. In the 2-year    period 1989 and 1990 , OCR closed , under all of
its authorities , 330 post-grant reviews involving discrimination against persons based on
their medical condition , handicap, race , abilty to payor other factors. Thirt-six percent
were specifically for Hil- Burton compliance. When OCR conducts a post-grant review
they can assess facility compliance with all of the statutory provisions binding on the
facility for which they have jurisdiction. Although , for reporting purposes , post-grant
reviews are categorized under only one authority.

During this same period , OCR received and processed 3 562     discrimination complaints.
Less than 4 percent of the complaints received by OCR specifically involve allegations of
Hil- Burton   noncompliance.



MEODOLOY
We intervewed OCR headquarters ' staff and OCR staff in the eight regional offices that
account for most of the Hil- Burton   workload. Data on the number of facilties
investigated and the number of compliance reviews conducted was obtained from OCR
headquarters.
FIINGS
Over the past 4 years , OCR has developed a comprehensive procedures manual for
conduct of investigations and routine compliance reviews. These national guidelines
coupled with the checks and balances of supervsory review, have improved OCR
investigative processes. Nevertheless , our inspection found that:

        Investigative procedures could be strengthened by using some unannounced visits.

        No formal or uniform follow-up procedures exist to ensure facilties take
        corrective action when they are found to be out of compliance.

        The OCR authority to enforce compliance        with Hil- Burton   regulations is limited.

        An opportunity exists for improving the investigative process by sharing staff
        expertise.


RECOMMATIONS
Medical facilties built with Hill- Burton funds are prohibited from discriminating through
the community servce obligation. The efforts of OCR to enforce Hil- Burton and other
legislation intended to prevent discrimination helps ensure health care access to a
significant segment of the American public.

To strengthen Hil- Burton enforcement efforts , OCR should:

        consider unannounced visits whenever possible to validate systems that facilties
        use in complying with the community servce obligation under the Hil- Burton
        program

        develop a follow-up system to monitor compliance agreements that ensures
        facilties take adequate and prompt action to bring their community servce
        programs into compliance

        seek legislative authority that allows for administrative action against facilties that
        fail to comply with their Hil- Burton community servce obligation or fail to take
        timely corrective action when their program is found to be out of compliance , and

        determine whether technical assistance guides and methodologies developed in
        individual regions can be shared nationally.
An exit conference was held with OCR to discuss this inspection s findings and
recommendations. At that meeting, OCR agreed in principle with the recommendations.
Subsequently, OCR provided wrtten , technical comments which we considered in
preparing this final report.

The Assistant Secretary for Planning and Evaluation (ASPE) recommended that we delete
recommendations callng for unannounced inspection visits unless they could be done cost
effectively. We continue to believe that unannounced visits can be an effective
enforcement tool. We do agree , and indeed had meant to emphasize , that their use
should be selective. The ASPE was also not supportive of additional enforcement
authority for OCR believing that Medicare funds could be suspended if Hil-Burton
requirements were violated. We stil believe that the various enforcement tools that we
have recommended would be useful to OCR and provide the flexibilty OCR needs to
ensure compliance with Hil- Burton requirements. The complete text of OCR and ASPE
comments can be found in Appendices A and      respectively.
                                    . . . . . . . .. ...
                                                      . .. .             ....
                                                           .. .. ... ... .            ...
                                                                         .. ... ... ... ..            ......... .. .. ...... ...
                                                                                        ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... .  ..
                                                                                                                                                                                        .. .. ..... ... . . . . . ..




                                                     TABLE OF CONTENTS

                                                                                                                                                                                                        PAGE

                                                                                               .......................................... i

INODUCfON .
FIINGS                                                                                                                                                . . . . . . . . . . . . . . . . . . . 5

   Unannounced Visits. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


   Follow-up Procedures. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 

                                                                                                                                                                                   . . . . . . . . . . 6

   Enforcement Authority                                                                                                                                                                     . . . . . . . 7

   Sharing Staff Exertise.                                                                 .                                                                                                    . . . . . . 7

RECO                             NDATIONS ............................................ 8

APPENICE

A: OCR Comments                                                                                                                                                                          . . . . .. A­
B: ASPE Comments
                                                                                                                                                           . . . . . . . . " B-
                            INTRODUCTION€
PUROSE
This inspection examines the effectiveness of the processes used by the Office for Civil
Rights (OCR) to monitor compliance with the community servce obligation of health
care facilties assisted by the Hil- Burton program.


BACKGROUN

Lelatie Backgwu
In 1946 ,Congress passed the Hospital Survey and Construction Act , commonly known
as the Hil- Burton Act. Since 1946 , more than $4 billon in Hil-Burton funds have
aided nearly 6 900 hospitals and other health care facilties in 4 000 communities
across the United States.

The Hil- Burton Act authorized Federal grants to assist States and communities in
constructing needed hospital and public health centers. Hil- Burton      recipients are
required to:

            provide a reasonable amount of uncompensated care to persons unable to
            pay, and

            make available , in perpetuity, the servces offered by the constructed facilty
            to all persons residing in the territorial area of the applicant.

This second requirement is commonly referred to as the " community servce
obligation. If a facilty continues operations without a change of status , OCR will
continue to enforce the community servce obligation even though the facilty has
completed its uncompensated care obligation. The OCR considers a change of status
to occur when the initial Hill- Burton recipient transfers ownership or control to
another entity. If control transfers to an ineligible entity (Le. , a for profit corporation)
the obligation to provide community servce terminates except under limited
circumstances.

Today, the Hil-Burton    community servce obligation could playa vital role in ensuring
access to the American health care system. The emergence of AIDS , the resurgence
of other infectious diseases such as measles and tuberculosis coupled with efforts by
government and private sector to control spiraling health care costs changed the
health care environment in the United States. Limits on the amount paid for patient
care , increased numbers of uninsured , misunderstandings of AIDS and inadequate
resources to deal with the infectious disease epidemics has created the temptation for
some facilties to transfer persons to publicly supported facilties or to refuse to
                                         ...




 provide emergency and other medical care.€

 The Hi-Burton community servce obligation prohibits a facilty from:€

               discriminating against patients when providing non-emergency servces;€

               denying emergency servces to persons unable to pay;

               deciding not to participate in governmental (Federal , State , and local)
               third- part payer programs , if eligible to do SO

               discriminating against beneficiaries of governmental third-part payment

               programs;€

               making exclusionary admissions policies , including the exclusion of patients
               who do not have a physician with staff privileges at the facilty; and

               requiring a cash deposit at time of servce.€

The cooperation of facilties that have received Hil- Burton grants is important to€
achievig the Secretary s strategic goal to improve access to health care for all€
Americans.€

In December 1980, the HHS Secretary delegated to OCR the responsibility for
ensuring facilty compliance with all aspects of the community servce obligation. In
addition to their Hil- Burton responsibilties , OCR is also responsible for monitoring
and ensuring compliance with Title VI of the Civil Rights Act of 1964, Section 504 of
the Rehabilitation Act , the Age Discrimination Act and other laws designed to prevent
discrimination. The OCR also coordinates its Hil- Burton activities with the patient
dumping investigations conducted by the Health Care Financing Administration
(HCF A) Offce of Inspector General.€

This study focuses on the processes used by OCR to monitor compliance with Hil-

Burton obligations. The processes used by OCR to monitor Hil- Burton compliance

are similar to the processes used to monitor all of the statutory provisions binding on€
facilties falling under OCR jurisdiction.€

Descrtin of Pres
When OCR conducts a post- grant review, they can assess facilty compliance with all
of the statutory provisions binding on the facilty but tyically                select the strongest


             Federal statutes require that physicians affiated with Hill-Burton assisted facilites must also
partcipate in governmental third-part payer programs. However 42 C.F. R.        124. 603(d)(2) states that to
be in compliance with this requirement " a facility does not have to require all of its staff physicians to
accept medicaid "
statutes for which they have jurisdiction. For reporting purposes , post-grant reviews
are categoried under only one statutory authority. Post-
                                                          grant reviews are generated
internally within OCR and can be targeted based on triennial survey results , media
interest, frequency of complaints , and other factors. Complaint investigations result
from specifc allegations made by an individual or group of individuals. If a facilty has
been a Hil-Burton recipient , its compliance with the community service obligation can
be examined whenever OCR has reason to conduct a civil rights or         discrimination
review.

The OCR mails all Hil- Burton assisted hospitals , nursing homes and other Hil- Burton
assisted facilities providing health or social servces a standard reporting form. The
information obtained from this form is used to determine facilties that potentially are
in noncompliance with Hil- Burton regulations. Facilties that are potentially in
noncompliance can be targeted for further review. In addition , individual regional
offces can , and often do , target facilties for compliance reviews based on the number
of complaints and other factors.

The OCR uses a number of different techniques to validate facilty compliance with
the Hil- Burton community servce obligation. During onsite reviews , OCR
investigators attempt to visually observe the operations of specific areas of the facilty.
They also examine facility notices , documents and usually will select a random sample
of emergency room or other hospital records for review. In addition to these on site
activities , investigators attempt to verify actual practice through third parties such a
advocacy groups. Statements from facilty staff, patients and other parties , coupled
with documents , provide the primary evidence used by OCR to determine compliance.

In the 2 year period 1989   and 1990 ,  OCR closed , under all of its authorities , 330 post-
grant reviews involving discrimination against persons based on their medical
condition , handicap, race , ability to payor other factors. Thirty-six percent of the
reviews were conducted specifcally to ensure for Hil- Burton compliance. In addition
to the post-grant reviews , OCR received and processed 3 562 discrimination
complaints.

If a facilty is found to be out of compliance , OCR undertakes negotiations with the
facilty to  brig its program back into compliance. When OCR and the facilty agree
to a corrective plan of action , a wrtten agreement between OCR and the facility is
executed. When the facilty has completed all of the corrective actions it notifies OCR
and OCR offcially closes the monitoring of the case. When an agreement cannot be
reached or the corrective actions are not implemented , the case can be referred to the
Department of Justice (DOJ) for action.
MEODOLOY€
The OCR has jurisdiction over civil rights and nondiscrimination codified in several
statutes. Ths inspection is limited to OCR responsibilty for the oversight and€
monitoring of the Hil- Burton community servce obligation. This inspection did not
look at how OCR handles each of the other authorities over which it has investigative
jurisdiction.

We intervewed OCR headquarters ' staff and OCR staff in the eight regional offces
that account for most of the Hil-Burton workload. The eight regional offces visited
during this study were Boston , New York , Philadelphia , Atlanta , Chicago , Dallas
Kansas City, and San Francisco.€

During our visit to the regional offces we gathered information on the flow of data
and the handling of complaints and routine compliance reviews. We analyzed the
processes used by OCR to ensure compliance with Hil- Burton provisions.

Data on the number of facilties investigated by regional OCR offces was obtained.€
Similar data on the number of compliance reviews conducted by the regional offices
was also obtained from OCR headquarters and from regional offces. The complaint
and compliance review data collected from OCR systems     were for the years 1989 and
1990.
                                  FINDINGS€
The OCR has developed a comprehensive procedures manual for conduct of
investigations and post-grant reviews. These national guidelines , coupled with the
checks and balances of supervsory review , have greatly improved OCR compliance
and investigative processes.

Selection of facilties for post-grant reviews is made from each of the statutory areas
over which OCR has investigative responsibilty. While reviews are opened under
specific authorities , OCR may find durig the course of their investigation violations in
areas other than the program under which the investigation was initiated. When this
occurs , the case will be documented to reflect noncompliance with the appropriate
statute. A case opened as a potential Hil-Burton violation may be closed indicating
violations of Title VI of the Civil Rights Act of 1964; likewise , a case opened under
Title VI could be closed with findings of noncompliance with the Hil- Burton
community servce obligation.

In 1989 and 1990 , OCR completed 119 post-grant reviews specifically to ensure facilty
compliance under Hil-Burton. During this same period , less than 4 percent of the
 562 complaints received and processed by OCR specifically involve allegations
Hil- Burton noncompliance. Hil- Burton violations may have been examined during
the course of other investigations.

Each region has autonomy in the selection of facilities it will review. While criteria
exists to identify facilities with high probabilty of being in violation of various civil
rights and nondiscrimination statutes , each region can request deleting or adding
facilities to reflect the critical issues affecting their region. For example , two regions
have chosen to use complaint files and media articles to target facilties accused of
using admissions policies that discriminate against AIDS patients. Another region is
focusing on facilities that refuse to provide care to Medicaid patients while another is
focusing on facilties that refuse to provide emergency care to uninsured patients.


Findig #1: The       OC inestigatie procures could be strengtened by the use of
              some    unann ounce viits.

The investigative community and other oversight agencies have long recognized the
deterrent effect of unannounced , random sight visits and audits. The mere possibilty
of being selected at random for verification of information previously provided to the
government has a positive effect on compliance. The possibilty of unannounced visits
coupled with appropriate enforcement authority would provide an incentive for Hil-
Burton facilties to monitor their operations to ensure compliance with civil rights
statutes at all times and not just during announced regulatory visits.
Once facilties have been selected for review, OCR tyically conducts an announced€
onsite visit to investigate the community servce programs operated by Hil- Burton€
grantees. The same procedure applies to complaints filed against    facilties alleging
communty servce noncompliance. As previously mentioned , OCR investigations
frequently determine whether a facilty might be in violation of other civil rights
nondiscrimination statutes.

According to OCR staff, most investigations and compliance reviews are conducted on
site with visits to facilties scheduled in advance. This is done to ensure that
administrative and other facilty staff are present to answer any questions OCR staff
may have regarding the way a facility implements its community servce obligation
under the Hil-Burton program. Advance scheduling of on site visits enables facilties
to collect documentation about their community servce program and to have it
available for OCR examination.€

While we did not independently investigate this , OCR staff felt that announced visits
can provide facilities with enough lead time to ensure that OCR investigators will find
nothing wrong with their community servce obligation program. Announced visits
may alter the way a facilty handles its community servce obligation for that brief
period when OCR is onsite.


Findig #2: No formal or       unorm follow-up procdures exit    to ensure facities   tae
              correcte acton     when they are found to be out of compliance.

Facilities whose community servce programs are found to be out of compliance are
sent a letter of findings specifyg the corrective actions to be taken. During 1989 and
1990 , 46 percent (55 of 119) of the post- grant reviews required facilities to take some
remedial action to bring their community servce program into compliance. More
often than not , corrective actions were discussed with these facilties before a formal
letter of findings   was issued by OCR. In many cases , OCR and facilties have
negotiated settlement agreements designed to bring the facility' s community servce
program back into compliance before an offcial notice of findings is sent to the€
facility. If a compromise cannot be reached or a facilty refuses to take corrective€
action , OCR regional offces must refer the case to OCR headquarters for a decision€
on whether to pursue legal action through DOJ.

We found wide variance in how individual OCR staff monitor facilties that have
agreed to take corrective action on findings of noncompliance. The data system
maintained by OCR headquarters does enable the regional office to input a follow-up
action date. However, regional offce staff told us that untimely updating of data
bases by the region ,coupled with a lack of uniform definitions and standardized
procedures , deterred them from using the system developed by OCR headquarters.
Consequently, each region , and often individuals within the region , have developed
their own personal systems that they use to remind themselves to follow up on a
facility' s efforts to bring their community servce program into compliance.
It was our overall impression , from discussions with OCR staff, that while
investigations were conducted conscientiously, follow-up actions were viewed as
nonproductive , if not undesirable , work. In almost all cases , a letter or other
documentation from the Hill-Burton facility was accepted as suffcient evidence that
the facilty had undertaken corrective action. Very few corrective actions are verified
through third parties or by onsite visits.


Findig #3: The    OC authority to enforce compliance with Hi-Buron regulations is
              lited.
Unlike Civi Monetary Penalties and sanction authorities available to other
Department programs , such as Medicare and Medicaid , the OCR has no such
administrative remedies to ensure that recalcitrant facilties bring their community
servce programs into compliance. The Medicare program also has the authority to
suspend government funds pending the resolution of investigations.

The lack of enforcement authority leaves OCR with two alternatives , either reach
settlement with the noncompliant facilty or refer the case for further action. Since
OCR has little clout to force compliance , settlements between regional offices and
facilties may not be suffcient to ensure that a facilty does not discriminate against
patients unable to pay for medical care. Further action against   a facilty requires that
the regional offce case be sent to OCR headquarters for consideration and referral to
DOJ. The absence of suffcient internal enforcement options creates delays in
resolving problems and hinders OCR' s   abilty to force   compliance.


Findig #4: An    opportty exits for improvig the investigatie process by sharg
             sta exprt.
During our regional office visits , we found individual staff members and regions that
have developed techniques that augment the national procedures. Several have
developed their own technical assistance gudes and other investigative tools. They
have also developed techniques to faciltate compliance reviews and complaint
investigations. In the Philadelphia regional offce , we found a system to coordinate
complaints received by HCF A and OCR. In the San Francisco regional office we
found a regional training manual. These guides and methodologies are not shared
with other regional offce staff and , in most cases , are confined to the region that
developed them.

                   RECOMMENDATIONS

Medical facilties built with Hill- Burton funds are prohibited from discriminating
through the community servce obligation. If it were not for this and other legislation
preventing discrimination and the efforts of OCR to enforce legislation a significant
segment of the American public would find it even more diffcult to obtain medical
care.

To strengthen Hil- Burton enforcement efforts OCR should:

1) Consider unannounced visits whenever possible to validate systems that facilties
    use in complying with the community servce obligation under the Hil- Burton
    program.

           Advance notice reduces the amount of time reviewers spend in the field
           and ensures that appropriate documentation will be available for reviewers.
           However , arrving a day early, or conducting an unannounced onsite visit at
           one facilty while doing an announced visit at another , would not only
           provide a truer picture of facility operations but also have a deterrent
           effect on other facilties.

2) Develop     a follow-up system to monitor compliance agreements that ensures
    facilties take adequate and prompt action to bring their community servce
    programs into compliance.

          While the current system used by OCR has the capabilty of generating
          notices that follow-up action is needed , it is not currently used to do so
          because the monitoring section of the case information system may not be
          updated in a timely manner by all regional offices. The OCR should
          develop a uniform regional system , or update the current system more
          frequently, to ensure follow-up actions are taken.

3) Seek   legislative authority that allows for administrative action against facilties that
   fail to comply with their Hil-Burton community servce obligation or fail to take
   timely corrective action when their program is found to be out of compliance.

          The abilty to assess civil monetary penalties , impose sanctions and restrict
          a facilty' s receipt of Federal grants and other payments would have a
          deterrent effect on facilties and strengthen OCR' s abilty to bring
          recalcitrant facilties and repeat offenders into compliance.
4) Determine    whether technical assistance guides and methodologies developed in
    individual regions can be shared nationally.

           Other investigative agencies share investigative tools and methodologies
           developed by peers. The OCR should explore methods that would enable
           them to share the expertise developed in one regional office with other
           regional office staff.


AGENCY     CO~NT
We received comments on our draft report from OCR and the Assistant Secretary for
Planning and Evaluation (ASPE).

Prior to our finalizing this report we met with OCR to discuss our findings and
recommendations. At that meeting, OCR agreed in principle with our report findings
and recommendations.

The ASPE recommended that we delete our recommendation that OCR conduct
unannounced inspection visits. They feel that unannounced visits are too costly to
warrant their use. The ASPE also feels that our recommendation that OCR seek
legislative authority that would allow them to take administrative action against
facilities is premature since other options may already be available. The ASPE
specifically mentions cutting off Medicare funds as an alternative. The full text of
ASPE' s comments can be found in Appendix B.

Our final report has been modified to incorporate the technical comments offered by
both agencies. The full text of OCR' s comments can be found in Appendix A.


OIG REPONSE TO         COMM ON TH DRA REPORT
We have discussed with OCR how unannounced visits might be conducted using
existing resources. We did not propose extensive use of unannounced visits by OCR.
Our suggestion is that OCR staff conduct unannounced compliance visits to nearby
facilities at the completion of regularly scheduled inspection visits. Such visits would
not be an indepth analysis such as that conducted at scheduled inspections. The
unannounced visits would be limited to time available. Compliance would be observed
and if time permtted or severity of infractions warranted a more indepth investigation
would be undertaken.

Unannounced visits playa key role in ensuring that facilties are vigilant in complying
with their community servce obligation. The IRS requires that tax returns be fied
and that records be maintained to substantiate returns. No such provision exists that
would require hospitals to document and maintain records on every person that may
have sought , but not received , medical care from them. How then does one ensure
that persons in need of medical care have not been denied care or that a facilty acted
in such a way as to discourage a person from pursuing care at their facilty? To deter
would be violators the IRS uses random audits in addition to auditing records of
taxayers whose returns fail certain edit screens.

Regarding cutting off Medicare/Medicaid funds , we continue to believe that additional
enforcement authority would be usefu to OCR. We believe that such authority would
provide the flexibilty OCR needs to ensure compliance with Hil- Burton requirements.
   APPENDIX A
   OFFCE FOR   CI RIGHT
CO~NT ON TH DRA REPORT
....      . -     . . . "                                   ...

" 'OC"€



                   DEPARTMENT Of HEALTH a. HUMAN SERVICES                 Of of the Seretar
                                                                          Office for Civil Rights
                                                                          Washington, D. C. 20201€

                DATE
                            24 JUL 1992
                FROM€       Edward Mercado
                            Director                 /J

                            Office f         1 Rf
                SUBJECT:€   OIG Draft   Report: Office for Civil Rights           Oversight
                            of the Hill-Burton Program , OEI-05-90-0026l
                            Emilie Baebel
                            Chief
                            Public Heal th  and Human Services Branch€
                            Office   of the Inspector General€

                This is in reply to your July 8, 1992 request for OCR
                regarding the above-referenced report.                comments

                In both the Executive   Sumary and   at page one
            the Hospital Survey and Construction Act, ,passed
                                                         the report refers to
                                                                in 1946 , and
            describes it as requiring provision of community services to
           persons residing or employed in a facility' s service
           Act , commonly known as Hill-Burton , is codified                  area. all
                                                                           This
                                                             in Title VI of the
           Public Health Service Act. Ti tIe VI does not require provision of
           communi ty services to those employed in the
           communi ty services requirement for those employed in the
                                                                     service
                                                                      area. The
                                                                        service
           area applies only to recipients of assistance under Title XVI of
           the Public Health Service Act , enacted in 1974.
           The third paragraph of page one closes: " If control transfers to an
            sic) noneligible entity... OCR will not require the new owner to
           honor the community service obligation.    " This sentence may imply
           that OCR has discretion to excuse a new owner from honoring
           obligation. Transfer                                              an
          obligation , except under limitedineligible  entity terminates the
                                          to an
                                             circumstances.
          The first sentence of the
          begins: " Since January 1980 ,third  paragraph on page two , which
                                         pursuant to an MOA... , OCR has been
          responsible for monitoring,   is misleading. This sentence should
          begin: " In December 1980, Secretary Patricia Harris delegated to
          OCR the responsibility of insuring compliance with all aspects
          of.



          On page two , the draft report lists a number of statutes which OCR
          moni     tors and enforces. This          list    includes " the Consolidated
          Omnibus Reconciliation Act of 1986 (patient dumping).   OCR is not€
          responsible for monitoring and ensuring compliance with the Act€
          although OCR coordinates its Hill-Burton activities with the COBRA
          acti vi ties of HCFA and OIG.


                                                    A-
Page 2 - OCR Comments

Footnote one on page two states that     (p)hysicians affiliated with
Hill-Burton assisted     facili ties   must also participate in
governmental third- party   payer programs.       This incorrectly
suggests that all physicians are   required to participate in these
programs.  See 42 C. F. R. S 124. 603 (d) (2) (" To be in compliance a
facili tydoes not have to require all of its staff physicians to
accept medicaid"

On page six , the phrase " to a compromise designed" in paragraph
one, Finding #2 , should be omitted. OCR does not compromise with
enforcement of the law. We do negotiate settlement agreements.
In the next paragraph , still on page six , sentence three begins:
 However , regional office staff told us that untimely updating.
The phrase, " in the region " should be inserted after " untimely
updating. "
Related to this, in paragraph two of the second Recommendation
page eight, the phrase it is not currently used to do so because
the. . . " should continue with " moni toring section of the case
information system may not be updated in a timely maner by        all
regional offices,  instead of " system is not updated timely.
Finally, the last sentence of Finding #3, page seven , in discussing
cases referred to DOJ for enforcement, states: " Historically, DOJ
has accepted few cases, leaving OCR with few options to force
compliance. " This sentence inaccurately suggests that DOJ has
routinely declined to enforce cases referred by OCR.
Please continue to apply our previous comments on the draft report
where appropriate.
You may contact     Marcella Haynes   at 619-0671 if you    have any
questions or comments.
Thank you for the opportunity to review the draft    report.




                                  A -€
          APPENDIX
ASISAN SECRTARY FOR PLAG AN EVALUATION
       COMM ON TH DRA REORT
-"....

 "'Ir.
                DEPARTMENT OF HEALTH a. HUMAN SEJVICES€                                 0t    of th   s... ,

                                                                           9 19         WIIIg. D. C- 201
         TO:€                  Richard P.  Kusserow
                                Inspector General

         FROM:€                Assistant Secretary for
                               Planning and Evaluation
         SUBJECT:              OIG Draft Report on OCR Hill-Burton Oversight
         This report deals with OCR' s enforcement of the Hill-Burton

         requirement that hospitals serve commnity residents. I

         pleased that OIG has found such a considerable improvement in OCR

         investigative reviews. I agree with most findings. However, I
         recommend some changes, as follows:

                  The draft report recommends  unannounced inspection visits.
                  A scheduled visit assures that hospital staff and records

                  are readily available without delay. It is hard to believe

                  that there is significant extra deterrent value if the
                  is unscheduled. One analogy is tax compliance, where IRS

                                                                                                      visit
                  audits are carefully scheduled in advance and rarely or

                  never unannounced. Furthermore, unannounced inspections
                  consume addi tional resources and decrease the total numer
                  of inspections possible. If a substantial cost-

                  effectiveness rationale specific to frequent Hill Burton

                  violations cannot be developed, this finding and

                  recommendation should be dropped.


                  The report finds that enforcement sanctions are limited, and

                  recommends legislation to add civil money penalties. While
                  I agree that the "H- bomb" of prosecution by the Justice

                  Department is a weak sanction, it is my understanding that

                  Medicare funds can be cut off if the institution does not€
                  comply. OCR and HCFA should develop procedures to enable
                  effective use of this more practical sanction, and explore

                  other options, before legislation is recommended. Nothing€
                  in this document suggests that such options have been fully

              explored.
         The report states that " physicians                         affiliated with Hill-Burton

         assisted facilities must also participate in governent third-
         party payer programs" such as Medicaid. This is incorrect. The
         facility must assure service to Medicaid patients, and the best
         method is to give some Medicaid participating physicians

         admi t   ting privileges, but nothing requires any or all                       physicians
         affiliated with the hospital to participate in                           Medicaid.




         cc:      Ed Mercado
